<html>
<title> - [H.A.S.C. No. 112-28] NATIONAL DEFENSE AUTHORIZATION ACT
FOR FISCAL YEAR 2012 AND OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS BEFORE THE COMMITTEE ON ARMED SERVICES HOUSE OF REPRESENTATIVES ONE HUNDRED TWELFTH CONGRESS FIRST SESSION</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]







                         [H.A.S.C. No. 112-28]

                                HEARING

                                   ON
 
                   NATIONAL DEFENSE AUTHORIZATION ACT
                          FOR FISCAL YEAR 2012

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

               SUBCOMMITTEE ON MILITARY PERSONNEL HEARING

                                   ON

                      MILITARY PERSONNEL OVERVIEW

                               __________

                              HEARING HELD
                             MARCH 17, 2011


                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     

                  U.S. GOVERNMENT PRINTING OFFICE
65-595                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="8ee9fee1ceedfbfdfae6ebe2fea0ede1e3a0">[email&#160;protected]</a>  
                                     



                   SUBCOMMITTEE ON MILITARY PERSONNEL

                  JOE WILSON, South Carolina, Chairman
WALTER B. JONES, North Carolina      SUSAN A. DAVIS, California
MIKE COFFMAN, Colorado               ROBERT A. BRADY, Pennsylvania
TOM ROONEY, Florida                  MADELEINE Z. BORDALLO, Guam
JOE HECK, Nevada                     DAVE LOEBSACK, Iowa
ALLEN B. WEST, Florida               NIKI TSONGAS, Massachusetts
AUSTIN SCOTT, Georgia                CHELLIE PINGREE, Maine
VICKY HARTZLER, Missouri
                Craig Greene, Professional Staff Member
                 Debra Wada, Professional Staff Member
                       Jim Weiss, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2011

                                                                   Page

Hearing:

Thursday, March 17, 2011, Military Personnel Overview............     1

Appendix:

Thursday, March 17, 2011.........................................    23
                              ----------                              

                        THURSDAY, MARCH 17, 2011
                      MILITARY PERSONNEL OVERVIEW
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Davis, Hon. Susan A., a Representative from California, Ranking 
  Member, Subcommittee on Military Personnel.....................     2
Wilson, Hon. Joe, a Representative from South Carolina, Chairman, 
  Subcommittee on Military Personnel.............................     1

                               WITNESSES

Bostick, Lt. Gen. Thomas P., USA, Deputy Chief of Staff, G-1, 
  U.S. Army......................................................     4
Ferguson, Vice Adm. Mark E., III, USN, Chief of Naval Personnel, 
  Deputy Chief of Naval Operations, U.S. Navy....................     6
Jones, Lt. Gen. Darrell D., USAF, Deputy Chief of Staff for 
  Manpower and Personnel, U.S. Air Force.........................     8
Milstead, Lt. Gen. Robert E., Jr., USMC, Deputy Commandant for 
  Manpower and Reserve Affairs, U.S. Marine Corps................     7
Stanley, Hon. Clifford L., Ph.D., Under Secretary of Defense for 
  Personnel and Readiness........................................     3

                                APPENDIX

Prepared Statements:

    Bostick, Lt. Gen. Thomas P...................................    84
    Davis, Hon. Susan A..........................................    28
    Ferguson, Vice Adm. Mark E., III.............................   105
    Jones, Lt. Gen. Darrell D....................................   153
    Milstead, Lt. Gen. Robert E., Jr.............................   128
    Stanley, Hon. Clifford L.....................................    30
    Wilson, Hon. Joe.............................................    27

Documents Submitted for the Record:

    The Fleet Reserve Association Statement for the Record on 
      Military Personnel Policy, Benefits, and Compensation......   173
    The Military Coalition Statement for the Record on Military 
      Personnel and Compensation Matters.........................   180
    The National Military Family Association Statement for the 
      Record.....................................................   207
    The Reserve Officers Association of the United States and the 
      Reserve Enlisted Association Statement for the Record......   240

Witness Responses to Questions Asked During the Hearing:

    Ms. Bordallo.................................................   251
    Mrs. Davis...................................................   251

Questions Submitted by Members Post Hearing:

    Ms. Tsongas..................................................   256
    Mr. Wilson...................................................   255
                      MILITARY PERSONNEL OVERVIEW

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                        Subcommittee on Military Personnel,
                          Washington, DC, Thursday, March 17, 2011.
    The subcommittee met, pursuant to call, at 11:16 a.m., in 
room 2212, Rayburn House Office Building, Hon. Joe Wilson 
(chairman of the subcommittee) presiding.

  OPENING STATEMENT OF HON. JOE WILSON, A REPRESENTATIVE FROM 
  SOUTH CAROLINA, CHAIRMAN, SUBCOMMITTEE ON MILITARY PERSONNEL

    Mr. Wilson. Good morning, ladies and gentlemen. Thank you 
for being here today for a subcommittee meeting of the Military 
Personnel Subcommittee of the House Armed Services Committee. 
This is a very important hearing as to military personnel 
overview.
    Today the subcommittee will turn its attention to the 
important issue of maintaining an All-Volunteer Force that is 
not only faced with continuing to fight even after 10 years of 
war, but also is now in a period of fiscal constraints and 
manpower reductions.
    The Department of Defense has completed an efficiency 
review, which will result in $100 billion being reinvested into 
the services over the next 5 years.
    The Department is also facing an additional $78 billion cut 
over 5 years to its top-line, with proposed cuts by the 
Department to a variety of programs to include end strength 
reductions for the Army and Marine Corps in 2015 and 2016.
    Today's hearing will focus on actions the services have 
taken to create efficiencies in personnel employment programs, 
to include pay and compensation, and the policies and programs 
that still need to be examined to successfully continue down a 
path of fiscal responsibility without undermining the readiness 
of the All-Volunteer Force.
    We will also examine how the proposed reduction of end of 
strength for the Army and Marine Corps will impact individual 
dwell time in light of unknown force requirements in the 
future.
    We are also concerned about the manpower reductions that 
all services will undertake and how they will employ voluntary 
and involuntary separation measures to achieve those reductions 
and how they will reduce the nondeployable populations in their 
services.
    We are joined today by an excellent panel consisting of the 
Under Secretary of Defense for Personnel and Readiness and the 
four personnel chiefs of the military services to help us 
explore these issues.
    I would request that all witnesses--and it is going to be 
tough--maintain an oral opening statement at 3 minutes. And 
Craig Greene is really tough on this, and so good luck.
    But, hey, he is the impartial scorekeeper.
    Without objection, all written statements will be entered 
into the record, to include statements submitted by the Reserve 
Officers Association, the Military Coalition, the Fleet Reserve 
Association, and the National Military Family Association.
    I would also like at this time to introduce our panel. The 
Honorable Dr. Clifford Stanley, the Under Secretary of Defense 
for Personnel and Readiness. Lieutenant General Thomas P. 
Bostick, the Deputy Chief of Staff G-1, Headquarters of the 
U.S. Army. Vice Admiral Mark E. Ferguson, III, Chief of Naval 
Personnel, Deputy Chief of Naval Operations, Total Force, U.S. 
Navy. Lieutenant General Robert E. Milstead, Jr., the Deputy 
Commandant for Manpower and Reserve Affairs, Headquarters of 
the U.S. Marine Corps. Lieutenant General Darrell D. Jones, the 
Deputy Chief of Staff, Manpower and Personnel, Headquarters of 
the U.S. Air Force.
    And I would especially like to welcome General Milstead and 
General Jones, who will be testifying for the first time in 
their new roles and very important positions that you have.
    I at this time will defer to the Ranking Member, the 
distinguished member of Congress from California, Susan Davis.
    [The prepared statement of Mr. Wilson can be found in the 
Appendix on page 27.]

    STATEMENT OF HON. SUSAN A. DAVIS, A REPRESENTATIVE FROM 
 CALIFORNIA, RANKING MEMBER, SUBCOMMITTEE ON MILITARY PERSONNEL

    Mrs. Davis. Thank you, Mr. Chairman.
    And to all of you, we appreciate your being here.
    Dr. Stanley, welcome back.
    And, Lieutenant General Bostick, and Vice Admiral Ferguson, 
Lieutenant General Milstead, and Lieutenant General Jones, to 
all of you, we are glad you are here.
    After nearly 10 years of war I look forward to hearing from 
you on the state of our military personnel and their families 
and the impact that the current economic climate is having on 
them.
    In recent years the services have enjoyed both a robust 
recruiting environment and budget. This has led to record 
achievements in recruiting and retention objectives, as well as 
an increase in the quality of our recruits.
    But recent indicators are sending a different signal. I am 
concerned that as job growth continues to improve and budget 
reductions are being implemented, the services may find 
themselves back to where we were just a few short years ago--a 
difficult recruiting environment.
    The major difference will be that we may not have the 
budgetary headroom to quickly change course. I hope we will 
address this issue.
    I am also concerned that the budget reductions will have an 
adverse impact on our quality-of-life programs for our 
servicemembers and their families. While the services all made 
a good faith effort to ensure that that the spending was 
included in the baseline budget, personnel and operation and 
maintenance funding seem to be in the first place where the 
services seek to reduce expenditures.
    Many of our quality-of-life programs are vital. We know 
that. They are vital to our servicemembers and their families, 
especially during these last 10 years of high tempo deployment.
    As the demand for these services remains constant and the 
budget continues to decline, we are going to face difficult 
choices. But we must remember that it is our men and women in 
uniform that makes our military the best in the world.
    Thank you all once again for being here.
    And, Mr. Chairman, I look forward to their testimony.
    [The prepared statement of Mrs. Davis can be found in the 
Appendix on page 28.]
    Mr. Wilson. Thank you, Mrs. Davis.
    And even before we begin, I have had the privilege and 
opportunity of meeting with each of you. And when I think of 
military personnel and military service, to me it is an 
opportunity for young people to achieve to their highest 
possible level.
    And it is very personal. My dad served with the Flying 
Tigers in the Army Air Corps, so--and I have a nephew who is in 
the Air Force. So I know how meaningful it has been.
    And then I have--I served 31 years, General Bostick, in the 
Army National Guard. I have three sons in the National Guard, 
and each one, they actually enjoy going to drill. So this is 
very positive.
    And then I am so grateful that another son is a doctor in 
the Navy. And so I know how uplifting. And then my late father-
in-law and late brother-in-law were marines. So we are joint 
service.
    With that, I would like to proceed to Secretary Stanley.

 STATEMENT OF HON. CLIFFORD L. STANLEY, PH.D., UNDER SECRETARY 
             OF DEFENSE FOR PERSONNEL AND READINESS

    Secretary Stanley. Well, good morning, Chairman Wilson, and 
Ranking Member Davis, and members of the committee.
    First of all, I want to respectfully request my witness 
statement be made a part of the record. And with this hearing I 
will have officially reached the 1-year mark in my tenure as 
the Under Secretary of Defense for Personnel and Readiness.
    But during this past year, I have focused on honoring, 
protecting, and improving the lives of our soldiers, sailors, 
airmen, and marines.
    This next year will demonstrate that while my focus has not 
changed, I will continue to refine my priorities to better 
serve our servicemembers and their loved ones.
    I look forward to continuing to work with you and this 
subcommittee as we support our total force of Active, National 
Guard, and Reserve servicemembers, as well as our civilian 
workforce and the dedicated families that support them.
    My focus: Total force readiness, caring for our people, and 
creating a culture of relevance, effectiveness, and efficiency. 
I view total force readiness as a mental, physical, emotional, 
and spiritual preparedness and resilience.
    And this involves enabling training, equipping, and 
supporting the total force when they are deployed and ensuring 
that they and their families have the care and support they 
need and deserve when they are at home.
    We have committed ourselves to supporting the Secretary of 
Defense in preparing the force to manage risk, preserve assets, 
and meet the challenges of a dynamic operational environment. 
We must increase the emphasis on agility, flexible force 
structures, responsive force-shaping policies, and integrated 
personnel management processes.
    We will continue to experience global competition for our 
educated and skilled workforce. Therefore, it is more 
imperative than ever for the Department of Defense to have 
personnel policies that attract, retain, train, educate, and 
sustain the right people.
    As we examine the total force, an All-Volunteer Force that 
first emerged in 1973, we intend to go beyond the scope of our 
Active, Guard and Reserve force, and in particular we are 
looking at the role of civilians in supporting the force, and 
most especially how families and volunteers fit into the total 
force equation.
    I also cannot overemphasize enough how essential it is that 
we continue to work in providing quality of life commensurate 
with the quality of service for our military, and most 
especially their families, and we will work to do everything 
possible to support our military families.
    It is our families, as you well know, who support our 
servicemembers, who support our Nation.
    I want to thank the subcommittee for all you do for our 
dedicated servicemembers, and I look forward to your questions.
    [The prepared statement of Secretary Stanley can be found 
in the Appendix on page 30.]
    Mr. Wilson. Thank you very much.
    At this time, General Bostick.

 STATEMENT OF LT. GEN. THOMAS P. BOSTICK, USA, DEPUTY CHIEF OF 
                     STAFF, G-1, U.S. ARMY

    General Bostick. Chairman Wilson and Ranking Member Davis, 
distinguished members of the Subcommittee on Military 
Personnel, thank you for this opportunity to appear before you.
    Chairman Wilson, I just want to thank you for your personal 
service in our military and also thank you for your sons and 
all that they have done to serve in uniform. We appreciate 
that.
    And, Representative Davis, I want to thank you for your 
focus on our people. We had a former Chief of Staff Abrams that 
used to say that people are not in the Army, they are the Army. 
So we agree with you and we are going to focus on our people, 
both our soldiers, civilians and their families.
    On behalf of the Secretary of the Army, the Honorable John 
McHugh, and our Chief of Staff, General George Casey, I would 
like to thank you for your unwavering support and demonstrated 
commitment to our soldiers, Army civilians, and family members. 
Our All-Volunteer Army is now in its 10th year of continuous 
combat operations. More than 1.1 million soldiers have deployed 
into combat, and this has impacted not only the soldiers, but 
their families as well.
    Additionally, Army civilians shoulder the majority of the 
burden in the generating-force mission, and 30,000 civilians 
have deployed into harm's way.
    Despite this unprecedented operational tempo, the Army is 
on track to achieve sustainable deployment tempo for our forces 
and restore balance to the Army by 2012. Both the Secretary and 
the Chief of Staff of the Army have set two priorities for the 
coming year: First, maintain our combat edge while we 
reconstitute the force; and, second to build resiliency in our 
people.
    To maintain our combat edge and sustain the All-Volunteer 
Army, we must continue to recruit and retain citizens and 
soldiers with the greatest potential for service. With the 
support of the Congress and the Nation, we are very proud to 
report that America's Army exceeded its enlisted goals of 
recruiting and our retention missions for fiscal year 2010, and 
we are confident that we will meet the goals for fiscal year 
2011.
    We also achieved all benchmarks with regard for recruiting 
highly qualified soldiers. Moreover, all components of the Army 
exceeded their reenlistment goals. Your support of initiatives 
and incentives remains key to our multi-year success.
    As the pace of the economic recovery increases, we will 
continue to carefully review incentives and seek your support 
to ensure we remain highly competitive in the evolving job 
market. The Army has already reduced bonuses dramatically for 
new accessions, as well as the retention mission. Average 
recruiting bonuses dropped from over $13,000 in fiscal year 
2009 to just under $3,000 today and are only used to 
incentivize longer-term enlistments in a small percentage of 
critical skills.
    These incentives are only used to ensure the success of the 
total Army recruiting and retention mission and to shape the 
force to meet specific grade and skill requirements.
    Despite our success in recruiting, the Army and the Nation 
face a significant challenge in this area due to increased 
obesity and decreased high-school graduation rates in certain 
parts of the country.
    Currently less than 3 in 10 17- to 24-year-olds are 
eligible to serve, primarily due to physical and educational 
requirements. Only 1 in 5 youth fails to graduate high school; 
1 in 5 youth 12- to 19-year-old is currently overweight 
compared to 1 in 20 in the 1960s and this trend is projected to 
grow 1 in 4 by 2015. As a Nation together we must continue to 
address these concerns.
    The Army implemented a civilian workforce transformation 
effort that will invigorate and strengthen the civilian 
workforce by addressing critical issues of structure, 
accession, development, retention, and succession planning. 
This initiative will give civilians the tools and resources to 
plan and achieve their career goals while at the same time 
providing Army leaders a workforce with the right skills and 
experiences to meet current and future missions.
    The Secretary of the Army and the Chief of Staff of the 
Army have directed that we continue to provide services and 
programs to build resiliency in our soldiers, civilians, and 
families, and to maintain or increase as necessary the quality 
of care, support and services that they require. We look 
forward to working with you as we move on a broad front to 
address the challenges of 10 years of war for our soldiers, 
civilians, and their families.
    To conclude, I want to thank you for your continued 
support, which remains vital to sustain our All-Volunteer Army 
through an unprecedented period of continuous combat 
operations. Now, as we prepare to draw down the Army and 
prepare for the complex strategic environment of the future, we 
will continue to work toward restoring balance and sustaining 
the high-quality Army.
    Chairman and members of the subcommittee, I thank you for 
your generous and unwavering support for our soldiers, 
civilians and families and I look forward to answering your 
questions.
    [The prepared statement of General Bostick can be found in 
the Appendix on page 84.]
    Mr. Wilson. Thank you very much.
    And, Admiral Ferguson.

  STATEMENT OF VICE ADM. MARK E. FERGUSON III, USN, CHIEF OF 
  NAVAL PERSONNEL, DEPUTY CHIEF OF NAVAL OPERATIONS, U.S. NAVY

    Admiral Ferguson. Chairman Wilson, Ranking Member Davis and 
distinguished members of the committee, good morning and thank 
you for the opportunity to review our fiscal year 2012 budget 
request.
    We believe our request appropriately balances risk in 
supporting the readiness requirements of the fleet and the 
joint force, growth in new and emerging mission areas, and the 
essential programs that provide for the care of our sailors and 
their families.
    The extraordinary people of our Navy are serving around the 
globe with nearly 50 percent of our ships underway or deployed. 
Sailors remain engaged on the ground in Iraq and Afghanistan, 
and more than 24,000 Active and Reserve sailors are serving in 
the Central Command region.
    Our forward-deployed Naval forces give us the flexibility 
to respond around the globe at a moment's notice. They provide 
deterrence, support maritime security, as well as conduct 
combat operations, and are able to rapidly respond to a 
humanitarian crisis, as we have seen in Indonesia, in Haiti, 
and now Japan.
    Our unique capabilities and our extraordinary people stand 
watch every day from the Middle East to the Mediterranean to 
the Western Pacific.
    Our sustained operational tempo continues to place stresses 
on the force. Providing a continuum of care for our sailors and 
their families remains our constant priority. Our safe harbor, 
operational stress control, and medical home port programs are 
critical elements of this continuum.
    We continue to adapt these programs to meet the needs of 
our sailors and their families. We monitor the health of the 
force through surveys and retention data, and pleased to report 
that sailors indicate they are satisfied with their leadership, 
their benefits, and their compensation. Your support has made 
this possible.
    In developing our fiscal year 2012 budget, we review 
current operations, our procurement profile, and our readiness 
requirements. This review indicated a need to add approximately 
6,800 billets to the operating forces.
    To source these billets without additions to our overall 
end strength, we reduced or consolidated approximately 8,400 
billets in the fleet, squadron staffs and shore activities.
    Additionally, the Navy has placed end strength previously 
funded by supplemental appropriation into our baseline program 
for fiscal year 2012 and beyond. We assess our end strength 
request of 325,700 will meet our projected requirements.
    We continue to attract, recruit and retain the Nation's 
best talent and have met or exceeded nearly all of our 
recruiting and retention goals for the year.
    In addition, your Navy has received over 20 national awards 
over the past 12 months recognizing accomplishments in the 
areas of workplace flexibility, training, diversity, 
recruiting, and workforce development.
    On behalf of the men and women of the United States Navy 
and their families, I extend my sincere appreciation to the 
committee and the Congress for your support.
    Thank you, and I look forward to your questions.
    [The prepared statement of Admiral Ferguson can be found in 
the Appendix on page 105.]
    Mr. Wilson. Thank you very much.
    And, General Milstead.

  STATEMENT OF LT. GEN. ROBERT E. MILSTEAD, JR., USMC, DEPUTY 
 COMMANDANT FOR MANPOWER AND RESERVE AFFAIRS, U.S. MARINE CORPS

    General Milstead. Good morning.
    Chairman Wilson, Ranking Member Davis, and distinguished 
members of the subcommittee, it is my privilege to appear 
before you today.
    The Marine Corps is our Nation's expeditionary force in 
readiness, and we are ready to respond to today's crisis with 
today's force, today.
    In addition to the over 20,000 marines engaged in combat in 
Afghanistan, marines are already providing humanitarian 
assistance to those impacted by the earthquake and the tsunami 
disaster in Japan. We began deploying forces less than 24 hours 
after the disaster hit and our numbers will soon total 2,200.
    The individual marine is our corps' most sacred resource, 
and the quality of our force has never been better. Part of my 
job is to make sure it stays that way.
    Regardless of any future force reductions and structure 
changes, the challenge of shaping our force with the right 
grades, combat experience, and skills to fulfill operational 
requirements will remain.
    We appreciate your continued support for the tools and 
funding to succeed.
    The top priority of the Commandant and mine is to keep 
faith with our marines, sailors, and their families through 
program improvements, and with your support we are doing just 
that.
    The Marines are proud of their eagle, globe, and anchor and 
what it represents to our country, and with your support a 
vibrant Marine Corps will continue to meet our Nation's call.
    I look forward to answering your questions.
    [The prepared statement of General Milstead can be found in 
the Appendix on page 128.]
    Mr. Wilson. Thank you very much.
    And, General Jones.

 STATEMENT OF LT. GEN. DARRELL D. JONES, USAF, DEPUTY CHIEF OF 
        STAFF FOR MANPOWER AND PERSONNEL, U.S. AIR FORCE

    General Jones. Mr. Chairman, Ranking Member Davis, and 
members of the subcommittee, thank you for the opportunity to 
appear before you today and represent all the men and women of 
the United States Air Force.
    These tremendously talented men and women, the officers, 
enlisted, and Air Force civilians of the total force are the 
backbone of our service.
    In an era of evolving requirements and constrained budgets, 
our Air Force faces an ever-increasing set of challenges. As 
the Deputy Chief of Staff for Manpower, Personnel and Services, 
I will do everything I can to deliver fully qualified and ready 
airmen to the joint warfighter while meeting the essential 
needs of the airmen and their families.
    We are dedicated to properly managing our end strength. 
Unfortunately, with retention at a 16-year record high, we are 
compelled to use voluntary and involuntary programs.
    We expect to exceed our end strength in fiscal year 2011 by 
roughly 1,500 officers and could experience additional growth 
through fiscal year 2012 if we do not actively manage our force 
levels.
    Our force management strategy is not a quick fix, but a 
tailored, multi-year effort. Beyond existing force management 
legislative authorities, we are working with the Office of the 
Secretary of Defense to seek additional legislative authorities 
to provide the tools to better manage our end strength.
    America deserves the very best Air Force in the world and 
that is what you have. As a result, it is our job to recruit, 
develop, and retain the highest-quality airmen from the 
broadest landscape to maintain that status.
    Even though quality and retention are high, we are 
obligating a portion of our budget for bonuses to recruit the 
right skill sets and retain experienced airmen in critical 
warfighting skills. Without these funds, we will handicap our 
commanders and their ability to carry out the full range of the 
missions that America demands of our Air Force.
    We are committed to streamlining and strengthening the 
resilience of our airmen and their families. Our goal is to 
build resilient airmen who have the ability to withstand, 
recover and grow in the face of stressors and changing demands.
    We remain fully committed to caring for our wounded airmen. 
We continue to provide support and assistance through the Air 
Force Survivor Assistance Program, the Recovery Care Program, 
and the Air Force Wounded Warrior Program, and we will do so 
for as long as needed.
    With your support, the warrior and survivor care programs 
will continue.
    In closing, today's airmen are an unsurpassed dedicated 
group. They enable us to have the competitive advantage against 
our adversaries and deliver dominance in air, space and, 
cyberspace. We continue to recruit, train, and retain America's 
finest and we will provide the care and the service that they 
and their families need.
    We appreciate your unfailing support to the men and women 
of our Air Force, and on behalf of the Chief of Staff of the 
United States Air Force, I look forward to answering your 
questions.
    [The prepared statement of General Jones can be found in 
the Appendix on page 153.]
    Mr. Wilson. Thank you very much.
    And we will now begin the 5-minute rounds, and beginning 
with me, and strictly adhere as best we can to this. And Mr. 
Greene will be the scorekeeper.
    So at this time I would like to point out that I am a 
strong supporter of the all-volunteer military. I have seen it 
work. I know and you--we do have America's finest. The new 
generation out there is so committed. They do remember the 
attack on our country on September 11, 2001, and so they are 
motivated to serve.
    I also am very, very concerned in the last 60 days events 
have occurred that I just didn't anticipate. First, we know of 
the instability of North Africa, the Middle East, the Persian 
Gulf, our great ally Bahrain that is so crucial. There is 
instability that certainly we need to be reconsidering what 
force structure is.
    Then we had the multiple catastrophes, disasters in Japan. 
Here one of the most advanced countries on Earth, and our 
sympathy to the people of Japan. But we saw what happened to us 
with Hurricane Katrina, and again massive areas of their 
country, just as Katrina was massive areas of our country. The 
military is just crucial, as we see, trying to protect the 
people of Japan, and we are backing them up. I want to thank 
all of you.
    Additionally, we are fighting cowardly combatants in Iraq 
and Afghanistan simultaneously. With that in mind--and, 
Secretary, we will go in the order whoever can answer--I am 
very concerned about a force reduction and the instability that 
is just worldwide.
    Secretary Stanley. Congressman Wilson, let me just take the 
first stab at that and then turn it over to the services.
    We are also--it is not a matter of just being concerned, it 
is actually a top priority. I was fortunate to have been on 
active duty in a manpower billet at Headquarters Marine Corps 
when we went through this process in the 1990s.
    And so we kind of--I remember vividly what happened then, 
what worked, what didn't work. And so as we look at right now, 
looking at our management tools, helping the services out, and 
even going to Congress to ask for help maybe with either 
voluntary or, you know, boards and so forth--with separation, 
to get the right force structure in place.
    And this is what General Jones alluded to, but there are 
other things that go along in the equation.
    I am going to turn it over to services and have them also 
address this.
    General Bostick. Chairman, as you know, the Congress 
approved a 22,000 temporary end strength increase for the Army, 
and in that we will come down in September of 2013. And we 
think we have the tools in place in order to do that properly.
    And we really needed that because of the end of stop-loss 
and because of the nondeployable situation that ran in our 
wounded warriors. So we deeply appreciate that. And based on 
the demand that we see ahead of us, we feel that we have the 
tools in place to bring that force down.
    The second reduction, in 2015, is going to be much more 
difficult for us, and as the Secretary of Defense said, it is 
conditions-based for us, and we are going to hold 547 through 
fiscal year 2014, and over the next 15 months, in 2015 and 
2016, we will draw down that 27,000.
    And the key for us is, what is the environment at that 
time? And we are doing our plans with the G-3 and the other 
leaders in our department to make sure that we do it 
appropriately and our number one mission, which is to fight and 
win the wars for the country, that we can do that both at home 
and abroad.
    Admiral Ferguson. Well, thank you.
    In the Navy we continuously plan and assess our manpower 
requirements versus force structure and the demands placed on 
the force. And we are in a period where we have, you know, we, 
the Navy drew down from the period of 2003 to 2010 by about 
45,000 that we came down. And so the last few years, we are in 
a very stable profile tied to our force structure, and the 2012 
proposal has us continuing on a fairly stable.
    As we go forward and should there be changes in force 
structure or reduction in commitments, then we will continue 
adjust both the size of the force, and we feel we have the 
adequate tools at this point to do so.
    General Milstead. Yes, sir. You know, the Marine Corps did 
grow. We grew from 175,000 to 202,000, we grew 27,000 for this 
fight, this dual-front fight. We have just finished our Force 
Structure Review Group. It is capabilities-based. We feel that 
we can bring the corps down to 186,800; that is about 15,000.
    Again, it is capabilities based, but it is important to 
stress to you that we have no intention of reducing our size 
until either 2014 or we are done with Afghanistan. So until we 
are done with Afghanistan, we have no intention on reducing our 
corps.
    And again, it is capabilities-based, and so we feel that 
that will allow us to do what the Nation expects us to do.
    Mr. Wilson. Thank you all very much.
    And we will proceed to Mrs. Davis.
    Mrs. Davis. Thank you very much again for being here and 
for responding, I think, to that.
    I want to thank you for the response in Japan. I think that 
we always have to have that capability. I think it is one of 
the most important things we do, is responding to our friends 
and allies around the world, especially in such a calamitous 
time as they are experiencing, and it is good that we are there 
and that we are able to do it.
    I wanted to just turn to a few issues that I hear about, 
and when I go on base in San Diego probably more than anything 
else I have sailors who come up to me and talk about their own 
personal situations, especially with their children. And I 
wanted to ask you about the National Defense Authorization Act 
of 2010, which required the establishment of the Office of 
Community Support for military families with special needs.
    Dr. Stanley, that was under you, I believe, and I am 
wondering who you have designated as the director of the office 
and when you think we will be able to learn what programs and 
what policies are being implemented to assist families with 
special needs?
    Secretary Stanley. Well, thank you, Congresswoman Davis.
    First of all, we have established the office within our 
Military, Community, and Family Policy Office. That office has 
been stood up. We have actually started working with the 
services to determine what the services' requirements may be 
and are. We have also launched about three different studies to 
actually help us as we go through the process of working with 
the services, you know, on exceptional family members.
    The money that was associated with that did not come with 
that, so we work with the services in providing them money to 
assist them in the Exceptional Family Member Program.
    Mrs. Davis. Do you happen to know about what they are able 
to utilize in terms of those dollars? I think $50 million was 
in the authorization, $40 million was allocated to the services 
to carry out the task.
    Secretary Stanley. I would have to get back to you, 
Congresswoman. I can take that for the record on the actual 
amount.
    [The information referred to can be found in the Appendix 
on page 251.]
    Mrs. Davis. All right. Thank you. I know that the different 
times that we have met, I have always wanted to check in on 
that and find out what is happening. It is not something that 
is known, of course, to the families at this time, but we are 
hoping that they will become more aware of it and we will have 
many vehicles for getting that information out.
    Probably not wanting to set too high an expectation, but on 
the other hand it should be available to them and we need folks 
who are helping.
    Secretary Stanley, I wanted to ask you also about programs 
which are helping in the transition. San Diego's veterans 
community has been very interested in a program at Camp 
Pendleton, and I wanted to just commend Pendleton for that.
    The program, Veterans in Piping, where a partnership has 
been established between the Marine Corps and the United 
Association that takes marines who are about to leave the 
service and places them into a 16-week apprenticeship program.
    This program helps marines get good-paying jobs, of course, 
when they leave the service, but the training is carried out 
without any real cost--direct cost--to the government or to the 
Marine Corps. About 97 marines have graduated from the program 
and it sounds like almost everyone who has participated has 
gotten a job on leaving.
    So I wanted to know whether you support the program and 
would you and the Administration support a revision to Title 10 
that explicitly allows, but by no means would require the 
services to have this kind of program available on base?
    Secretary Stanley. Okay. Thank you, Congresswoman. I 
appreciate the question and I actually know the people 
personally who are actually running the program, a couple of 
retired Marine generals, and have met with them, and I am very 
supportive of the program.
    Have not followed up on it recently. Put them in contact 
with not only my Wounded Warrior--our Wounded Warrior office 
but also the Department of Labor. I would have to circle back 
with them to see where it is right now.
    I will say that I would have to take it for the record on 
whether or not that should be a Title 10, you know, 
entitlement, but I certainly am supportive of the program and 
the success they have already enjoyed. I am very supportive.
    [The information referred to can be found in the Appendix 
on page 251.]
    Mrs. Davis. All right, thank you.
    I will let that go there, but I--the enthusiasm for this 
program is such that we really do need to follow up and make 
certain that we are not having some issues where we are not 
able to allow people to do that when it really would be of such 
great benefit to them as they are leaving. So I thank you for 
that.
    And I will go ahead and turn back my time, Mr. Chairman.
    Mr. Wilson. Thank you.
    And Congressman Allen West, of Florida.
    Mr. West. Thank you, Mr. Chairman and Madam Ranking Member.
    And to the panel, I can't tell you the privilege it is to 
having been in uniform and now have the opportunity to be on 
this side, but to continue to serve the men and women that make 
this country great and protect our freedoms.
    And, General Bostick, just to let you know, my young nephew 
is the artillery assignments officer down at Fort Knox, 
Kentucky, so kind of had to talk to him about his perspectives 
on personnel.
    But, you know, when I look at the history of U.S. military 
operations, especially in the 20th century, we seem to have 
peaks and valleys. And, you know, one of the big concerns that 
I look at is how we ramp up for certain things and then the 
next thing you know we ramp back down. And we always seem to 
get ourselves caught, you know, excuse me, with our pants down.
    And we have seen that. I saw that when I was a brigade S-3 
and a battalion XO [executive officer] post-the Soviet Union 
collapse, post-Desert Shield/Desert Storm, all of a sudden we 
start to riff and ramp down.
    So as I look at now--and this kind of dovetails off what 
the chairman brought up--how we have a more deployed military, 
to include our Reserve Component forces, we want to try to have 
that 1:3 dwell time out there.
    The fact that we have so severely cut the Navy, from 546 
ships down to 283 ships, but now we see the maritime threats 
that we have out there, which definitely dovetails over to the 
Marines. And of course we have an Army that is stretched thin, 
we have an Air Force that is--you know, needs to get back to 
being a force projection platform.
    My concern is this, and this is my question. General 
Cavazos, who was a great mentor for me, always said that 
quantity has a quality all its own.
    So in looking at that, do you believe that your total force 
is at a steady state to support the full spectrum of the 
operations and challenges that we see on this modern, complex, 
and very fluid 21st century battlefield, because the world as 
we knew it on the first of January 2011 is already a totally 
different world, and it seems that it changes just about week 
to week.
    So I just want to make sure that we don't find ourselves 
going into one of these valleys, because the people that 
ultimately will have to suffer because of that are the men and 
women we put in uniform, so.
    Secretary Stanley. I will give my service counterparts here 
an opportunity to think about that a little bit as I take a 
stab into that.
    Total force, as I alluded to first of all, deals with not 
only those on our Active, but also our Guard and our Reserve. I 
think they are an important part of the equation. But also we 
have civilians who are also a part of this.
    And so as we look at what we are doing, that is how we are 
shaping and approaching this. The assessment--your question is 
actually a part of the assessment process that we are going 
through right now.
    I am going to defer my time to the services. I know it is 
precious.
    General Bostick. Congressman, I would agree with you that 
we have taken some risk in our ability to operate on the higher 
end of the spectrum due to the requirements to fight as we are 
in the operations in Iraq and Afghanistan.
    We know that we need to train at the higher end, and for 
the first time, recently we had a brigade combat team at the 
National Training Center that was able to train at the high 
intensity of combat end of the spectrum.
    So we are rusty in that. We know that. And as we come out 
of Iraq and Afghanistan we are certainly training in that area.
    We are also concerned that we get the dwell time that our 
soldiers and families need. As you pointed out, for the first 
time we believe that we will have 2 years of dwell for our 
soldiers and families. When the soldiers deploy in October of 
this year, when they come back for the first time they can 
expect that they will have 2 years of dwell. And that hasn't 
happened from any of them for quite some time.
    The other thing we found that we have to do, to address 
your point on contracting and expanding military, is that we 
have to look at new ways to expand our force. We have to look 
at lateral exits and lateral entry. We have to look at 
sabbatical assignments where you can go get a Ph.D. and be away 
from the Army for 3 years and then come back in. We have to 
look at continuum of service, where you can leave the Active 
Army and go into the Guard and Reserve or you can come from the 
Guard and Reserve, come in Active.
    So all of those types of ideas is what we are looking at 
now because we have the same concern, that we might have to 
ramp up very quickly and how do we do that, particularly in our 
Officer Corps, which once they leave generally do not come 
back.
    Admiral Ferguson. Congressman, for the Navy the CNO [Chief 
of Naval Operations] has testified that a floor of 
approximately 313 ships is what we will need to sustain a 
global Navy at demands that we see today and the threats into 
the future. And we are on a building profile to reach that 
point in our budget submissions.
    We believe a balanced force with an integrated Reserve that 
is operational rise, that has the continuum of service which we 
are working to is vital. But we are making new investments. We 
are increasing our investment in the cyber area. We are 
investing in ballistic missile defense, and we are reinvesting 
in our warfare capabilities in anti-submarine warfare, 
electronic warfare, in the high end in our budget submission.
    We are able at the force structure that we have to call on 
our Reserves to surge, which they have been invaluable in that 
and have been able to sustain in most of our areas, about a 2.8 
to 3:1 dwell time. So we feel we are in balance at this point.
    General Milstead. Sir, you expect your Marine Corps to be 
most ready when the Nation is least ready. That means we have 
to be ready today. That does not facilitate tiered readiness, 
as you spoke of. We can't have peaks and valleys. We have to be 
ready and we have to be ready today.
    I will tell you this is the healthiest Marine Corps that I 
have seen, and I am just beginning my 36th year of service. It 
is the healthiest corps I have seen in 36 years.
    And it is all about the people, as General Bostick 
mentioned. What sets us aside as a corps is people. And, you 
know, what it takes to be a marine today is what it will take 
to be a marine tomorrow.
    So we will continue to recruit that high-quality young men 
and women that feels called to serve their Nation, something 
greater than them. And I have no qualms about what the future 
holds for our corps.
    Mr. Wilson. At this time we need to proceed, but, General 
Milstead, I want you to know that the next person is very 
interested in the marines being stationed in her very beautiful 
and strategically located island of Guam.
    Congresswoman Madeleine Bordallo.
    Ms. Bordallo. Thank you very much, Mr. Chairman. You have 
always been so supportive of our military buildup on Guam.
    And I just have two quick questions. As Guam is the closest 
U.S. neighbor to Japan, I want to thank all the services for 
the support you have given during this disaster.
    General Bostick, I want to ask you about a problem we have 
been experiencing on Guam now for some time. This provision--or 
it is relevant to the section 621 of last year's defense 
authorization bill, and this provision provided a 1-year 
extension of authority to provide travel allowances for 
inactive duty training outside normal distances.
    Now, members of the Guam National Guard live just north of 
Guam in the Northern Marianas Islands. These men and women have 
limited transportation options for training on Guam and often 
spend a lot of money out of pocket to get to and from drills.
    I have asked for a pilot program to be launched in Guam 
that would allow these servicemembers to utilize this authority 
to defray the cost of travel.
    This is an important readiness issue, as well as key 
recruiting and retention matter for our Guam National Guard. 
All we hear from past correspondence is that we are working on 
it.
    So my question for you is, what must be done to get this 
program started? What can the committee do to assist in regards 
to this matter? And can I get your commitment to work with me 
on this initiative?
    General Bostick. First, Congresswoman, you do have my 
commitment. This was brought to my attention. And the primary 
thing that we have to work is the joint travel regulation, 
which doesn't authorize this flight travel.
    But we have the issue, we are talking with your team and 
the team in the Department, and I believe we can find a way to 
resolve this.
    But I concur with the issue. We are working it, and I will 
personally get back to you on it.
    [The information referred to can be found in the Appendix 
on page 251.]
    Ms. Bordallo. Is this because we are located outside of the 
mainland United States?
    General Bostick. No, it is just--we work exceptions to all 
of our regulations and policies, as you know, all the time. So 
it is just something that we have to come to closure on.
    Ms. Bordallo. Well, thank you very much for your 
commitment, and we will remember that.
    My second question is to General Milstead. In the Secretary 
of Defense's recent posture hearing before this committee, he 
mentioned a reduction in Army and Marine Corps end strength in 
the out-years of the FYDP [future years defense program].
    What impact will these reductions have on the proposed 
Marine units that will be realigned to Guam over the coming 
years? And could this impact the bed-down of marines on Guam in 
terms of what units and skill sets will be placed on Guam?
    What impact might these reductions have on our ability to 
participate in operations such as humanitarian assistance, 
disaster relief or mil-to-mil engagement in the Pacific?
    General Milstead. Yes, ma'am. We indeed were directed to 
reduce our corps 20,000 over the years 2014 and 2015. And as I 
mentioned earlier, we have completed our Force Structure Review 
Group where we briefed the Secretary and he agreed that we 
would go down about 15,000, and it would be 186,800, not to 
commence until we are complete with combat operations in 
Afghanistan.
    As far as how that will affect specifically our bed-down 
per units on Guam, I would like to take that for record if I 
may and that is a PP&O [plans, policies, and operations] piece, 
and I will get you a good solid answer that I am not prepared 
to provide at this time.
    [The information referred to was not available at the time 
of printing.]
    Ms. Bordallo. Very good. We will wait for that information.
    And thank you, Mr. Chairman, for always being so supportive 
of our buildup on Guam.
    Mr. Wilson. Well, I have been there, so I know how good it 
is and what a strategic location it is, and wonderful people. 
So thank you for your service.
    We will proceed to a second round in coordination with the 
Ranking Member, and what we will do is each person will ask 
another question.
    As we proceed, I am very grateful that Congressman West 
brought up maritime challenges. And, Admiral, many of us 
thought that piracy was something that occurred 250 years ago 
with the Barbary pirates. We are aware how shocking that really 
you have to face piracy today, which is affecting world 
commerce, and safety, and security. And that is in addition to 
a threat from Iran.
    So I want to thank Congressman West for bringing up the 
increasing maritime threat.
    I know firsthand that Active Duty personnel, Guard 
personnel, and Reserves are grateful to serve. They are 
grateful to be deployed. I know firsthand, my former National 
Guard unit, the 218th Brigade, served for a year in 
Afghanistan, 1,600 troops led by our current--our new adjutant 
general, Bob Livingston. It was the largest deployment since 
World War II. But the people were very proud of their service.
    But something that has to be kept in mind is dwell time. 
And as we look at reduction or downsizing, beginning with 
Secretary Stanley, I would like to know what the goal of dwell 
time is? This is of great concern to members of the military 
and their families.
    Secretary Stanley. Thank you, Chairman Wilson.
    Secretary Gates set dwell time goals of 1:5 for Active and 
1:2 for--excuse me, 1:5 for our Reserve, 1:2 for actually our 
Active Component. I actually think that is 1:3, I think I just 
wrote it down just 1:3.
    And the services now are moving in the direction of getting 
there, and I am going to allow the services to address that if 
that is okay.
    Mr. Wilson. Yes.
    General Bostick. We would certainly like to get to 1:2 for 
the Active, 1:4 for the Reserve component. There has been 
discussion about going to 3 years, and it is really a 1:3. So 
it is 1 year or--we think if you go to 1:3 it could be 9 months 
deployed, for example, and 27 months back home. So that is a 
1:3 ratio, not necessarily 3 years back.
    Right now we are at 1:2 for the Active Force, and we 
believe that it takes 2 to 3 years to get your family and 
yourself settled after a tour of 1 year in length. So it is 
important for us to get as a minimum to 2 years back home. And 
we think for the units that deploy in October of this year, we 
will see that when they return.
    And so it is very much of interest for us. We are working 
towards that.
    What really matters for us, though, is the end strength is 
important, but it is, what are the demands? What are the 
demands on the force? If those demands come down then within 
the end strength that we are directed to go to, we could still 
meet a 1:2--dwell and a 1:4 for the Reserves.
    Admiral Ferguson. Chairman Wilson, we are meeting, as I 
stated earlier, on the broad force, we are seeing selected 
units go under increasing stress. And I want to mention our 
special operations forces, explosive ordnance detail, and our 
special operators in particular because their training ranges 
and what they need to do to work up is not co-located at their 
home site, that they spend a greater amount of time away from 
home in preparation to deploy and then in actual deployment.
    So we have concerns about those particular forces. They are 
very small. But in the broader force we manage it very 
carefully. We set fairly strict policies and track their 
PERSTEMPO [personnel tempo] and dwell. And to break certain 
boundaries, the Chief of Naval Operations has to approve those.
    And so we feel comfortable, but do see some concern with 
those forces that are carrying the fight in theater for us.
    Mr. Wilson. And they are so effective.
    Excuse me, General Milstead I believe is next.
    General Milstead. Yes, sir.
    For the Marine Corps our goal for our Active Forces is a 
1:2 dwell, and then post-Afghanistan our goal will be a 1:3. 
For the Reserves currently in combat it is a 1:4, and post-OCO 
[overseas contingency operations] our goal will be a 1:5.
    Mr. Wilson. Thank you.
    And, General Jones.
    General Jones. Mr. Chairman post-conflict our goal would be 
1:4 dwell time for our airmen, who are very much in the fight. 
Thirty-seven thousand airmen are deployed today; 29,000 of 
those are in the CENTCOM [United States Central Command] AOR 
[area of responsibility].
    But also we have to remember that in the Air Force we have 
a large number of our forces who are supporting COCOM 
[combatant commands] requirements every day. In fact, 43 
percent, about 217,000 people at places like Creech Air Force 
Base in the Nevada desert, which as you walk through the front 
door you see the sign that says, ``You are now entering the 
CENTCOM area of responsibility,'' because they are able to do 
their mission in a distributed fashion, actually flying the 
remotely piloted aircraft over the conflict. So we are very 
much involved.
    We need to provide--as we have bands and buckets with our 
different dwell times, from 1:1 to 1:2 to 1:3, we try to focus 
very hard on getting those airmen that are in the hot--the 
short dwell times, the 1:1 and the 1:2, to incentivize them, to 
give them the special bonuses to reenlist, to keep the numbers 
up, because only by keeping the numbers up in those specialties 
can you increase their dwell time and shorten the amount of 
them that they have back home--or excuse me, increase the 
amount of time they have back home with their families.
    Mr. Wilson. Thank you, and I appreciate you mentioning 
unmanned aerial vehicles. I always hope with two sons in Iraq 
that there was one over their head. So let them know at Creech, 
we appreciate them.
    Congresswoman Davis.
    Mrs. Davis. Thank you.
    I know everybody is really struggling with some of the 
personnel accounts and trying to find efficiencies out of 
those. We also know that we haven't given our managers a lot of 
room to maneuver with them as well, so much of it is driven by 
formula.
    But I wanted to just ask about one in particular because I 
hear about this more as a work-life family balance issue often, 
and that is the permanent changes of station moves.
    It has been considered as one of the efficiencies that we 
need to look at, particularly in terms of travel expenses. But 
I also wondered about some of the other issues. Because 
particularly for women who are in the services and are deciding 
whether or not they are going to stay in the service, the fact 
that they and often their spouse have to move a great deal 
makes a difference.
    We know there are reasons for that in the different 
services, but I am wondering to what extent you think that that 
is actually a good place to be looking to see whether there is 
a way to better create that work-life balance while at the same 
time dealing with that as a budgetary issue. Or is that, you 
know, just not a possibility in the way that we might think, 
certainly in terms of those efficiencies?
    Secretary Stanley. I am just going to just make one 
comment, Congresswoman Davis. We actually have started those 
discussions, and I don't know if we have even begun to have 
those discussions with the services yet, as we look at how we 
approach that very important subject, as we look at the 
balancing and looking at how our forces. Because as I said in 
our opening statement, families, they are part of this 
equation, moves and everything.
    So I don't know where the services are yet on it because we 
haven't had mature discussions on it yet. I will defer to them.
    Mrs. Davis. Anybody want to comment?
    General Jones. Ma'am, in the Air Force we have increased 
the length of PCS [permanent change of station] moves or the 
amount of time you get to stay at your base over the years and 
that is important because, as you point out, with the work-life 
balance, around 19 percent of our force are women in the Air 
Force, officers and enlisted, and about 48,000 of those are 
joint spouse couples married to another servicemember.
    And we try very hard to manage the assignments of those 
officers and those enlisted members where they can continue to 
progress at their base and get them in the same general 
location.
    In some career fields that is easy, in some career fields 
that is obviously more difficult. And women in the same career 
field, it increases the difficulty.
    But we feel like we work that very, very hard, and that is 
something we would like to consider to work and try to add that 
stability. And I can tell you as a dependent when I was young, 
having gone through it with my own family, and now watching my 
son go through it in the Air Force, we need to focus on those 
family things because that is what keeps us in the Air Force 
and their ability to serve their family and also serve their 
Nation.
    Admiral Ferguson. I agree with General Jones. And we also 
approach it similarly, as a family readiness issue, a work 
balance and a quality-of-life issue.
    I would like to present another aspect of it for your 
consideration, and that relates to continued operation under a 
continuing resolution. Because of the manpower counts that we 
operate under, about 96 percent are nondiscretionary pay 
bonuses allowances.
    And as we approach the end of the year, if we were to 
continue for the entire fiscal year under a continuing 
resolution, in the Navy we would be forced to start to halt 
moves, to use those funds to pay for pay, base pay and bonuses 
and other things that are required.
    And so the uncertainty of our funding stream presents a 
challenge to our families who start to plan on moves and 
relocations and children starting school in the fall. And so I 
would just offer that that is a great concern to us, that if we 
start to progress later into the spring under a continuing 
resolution, we will have to take actions to delay moves and to 
slide them into next fiscal year in order to ensure we have 
sufficient funds to cover our accounts.
    Mrs. Davis. I hear that is a hot topic on the Internet, on 
Facebook right now among our servicemembers.
    Anybody else?
    General Bostick. Congresswoman Davis, as you said, much of 
our budget is must-fund for the Army, 96 percent of our budget 
is must-fund, so PCS and tuition assistance and education and 
other things that are very important to our soldiers and 
families are in that 4 percent.
    I don't think there is a lot of wiggle room in PCS moves. 
Part of our Army force generation model that is a rotational 
model in about 50 percent of the force coming back from a 
brigade combat team is going to have to move to schools and 
move to training, move to other assignments as they move higher 
in grade.
    What we have been sensitive to is spouses and children that 
need to complete school, or spouses that are in a position or a 
job where they want to retain that position, or families that 
while their husband or wife is deployed, their soldier is 
deployed, allowing them to remain in an area where their 
housing is stable, their school is stable, and their job is 
stable.
    General Milstead. Yes, ma'am, I will just close it out. And 
I will agree with everything that has been said, you know. 
About 47 to 48 percent of our corps is married. There is little 
flexibility in the MILPERS [military personnel] accounts, 
absolutely. It is a rob Peter to pay Paul. And so then you have 
to maintain that balance and make sure that you don't take away 
from the other things.
    As Admiral Ferguson pointed out, the continuing resolution 
is a significant issue here. With the Marine Corps, if we were 
to remain on the CR [continuing resolution], we are looking at 
somewhere close to $500 million. And we are going to have to 
rob Peter. And Peter is going to be procurement accounts. It is 
going to be other things.
    So, you know, I would just reinforce what my Navy brother 
said.
    Thank you.
    Mr. Wilson. Thank you all. And we will be concluding with 
Congressman Allen West of Florida.
    Mr. West. Thank you, Mr. Chairman, Ranking Member.
    Recently I had the opportunity to go down to SOUTHCOM 
[United States Southern Command] headquarters down in Miami. 
And when you sit there, you get the Major General (Select), 
Chief of Staff USMC [United States Marine Corps] really did a 
great job hosting me.
    When you sit down at SOUTHCOM you get the sensing that this 
is kind of the economy of force AOR. But when you get the ops 
and intel brief, you really get concerned about some of the 
actors that are starting to come into that AOR because, you 
know, the bad guy always looks for the soft underbelly.
    My first question is, you know, how are we looking at our 
allocation of forces that we have in the SOUTHCOM AOR? And how 
quickly we can increase the allocation of forces to the 
SOUTHCOM AOR?
    And then the second question is, after the visit I had to 
Guantanamo Bay--and I have to tell you these soldiers, sailors, 
airmen, and marines down there are doing a fantastic job and I 
think that we need to make sure we get that message out.
    But as we talk about drawing down forces in Afghanistan, as 
you know, we have the prison facility there in Bagram where we 
are expanding that to Parwan, if we are going to draw down 
forces in Afghanistan, what happens with the--some very bad 
actors, high-value detainees that we have there.
    Are we looking down the road as we lessen our capability to 
deal with the detention facility in theater in Afghanistan, how 
do we increase a level of personnel, not ad hoc personnel, but 
how do we increase a permanent cadre of personnel at Guantanamo 
Bay, and also the facilities for the families down there as 
well? So those are my two final questions.
    I yield back.
    General Bostick. I would just say we don't see it as an 
economy of force. I think with each of the combatant commanders 
we provide them the joint personnel and all of their 
requirements. At least from the stable authorizations in the 
joint arena, we have been providing the Army portion of that.
    In terms of how quickly we could ramp up, that is a good 
part of the reason our chief and secretary drove us to the Army 
force generation model. Right now we meet all demands that we 
are asked to meet, and when we run out of forces, we cannot 
meet others.
    We are trying to get to a supply-based force of 1 corps, 5 
divisions, 20 brigade combat teams and about 90,000 enablers to 
provide places like Afghanistan and Iraq or other locations. 
But we are not at the point where can surge anywhere. And we 
are trying to build that surge capability. And once the demand 
comes down in Iraq and Afghanistan and if a surge requirement 
were necessary, that is part of the Army force generation model 
design.
    Admiral Ferguson. Congressman, I would offer that we 
recognized that about 2 years ago when we stood up the 4th 
Fleet staff down in Florida under Admiral Guillory. And he 
reports directly to SOUTHCOM because there is a necessity for 
an ongoing planning effort and operational awareness of what is 
happening in theater, and he provides that as well as the close 
contact with the countries of the region.
    There is a great flexibility in naval forces. You know, the 
first forces on the scene in Haiti were naval forces and the 
ability to surge from our various ports on the East Coast or 
even forces returning from theater I think can meet the 
allocation.
    And like the other services, we are responsive to the 
combatant commander in how that allocation process works. But 
the ongoing relationship piece I think is the important part 
that we recognize.
    General Milstead. I would just add again to what Admiral 
Ferguson said.
    There is great flexibility in the Navy-Marine Corps team. 
Theater security cooperation efforts in that area can have a 
great return on investment.
    When something happens, probably the COCOM's first question 
is, you know, where is the MEU [Marine expeditionary unit] and 
where is the carrier battle group? I think that these give you 
that sort of flexibility. You know, again, our FSRG [force 
structure review group], our 186,800, that is the number, and 
we feel it will allow us to still do those things and source 
those MEUs and remain a flexible force and be continually ready 
to go.
    And I guess the last thing I would say is we are also 
looking at operationalizing our Reserve. I think there is more 
opportunity to use them in an operational role.
    Thank you.
    General Jones. Sir, we are very pleased to have Air Force 
General Doug Fraser down commanding SOUTHCOM and he is doing a 
great job. And we just spoke with him the other day, and we are 
trying to give General Fraser everything he needs for the AOR 
that he supports.
    But one of the great jewels the Air Force is fortunate to 
support is the Inter-American Air Forces Academy in San Antonio 
that allows us to bring members of South American and Central 
American air forces and other--and police forces up and train 
them alongside their U.S. counterparts, and allows for those 
long-term relationships for when we do need contacts in those 
areas.
    And so we can provide support through many avenues taking 
that approach.
    Mr. West. Any thoughts on Gitmo and how we can--that 
personnel challenge if we draw down our force in Afghanistan, 
which means that will effect the detention facility there?
    Secretary Stanley. I don't have any thoughts on it because 
that is not in my domain of what I have worked operationally, 
if you know what I mean.
    Mr. West. Yield back.
    Mr. Wilson. Thank you very much. As we conclude, I want to 
thank all of you. And I want to thank Congressman West.
    As we were thinking of uncertainty, we have uncertainty to 
our southern border, whether it be the humanitarian efforts 
that all of you were so helpful with, with the people of Haiti, 
but then the instability of our great neighbor, a country that 
is very important to all of us, Mexico.
    So thank you for what you do, and I am delighted to hear 
about the 4th Fleet.
    So at this time, unless there is anything further, we shall 
adjourn. Thank you.
    [Whereupon, at 12:19 p.m., the subcommittee was adjourned.]
?

      
=======================================================================




                            A P P E N D I X

                             March 17, 2011

=======================================================================

      
?

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 17, 2011

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T5595.001
    
    [GRAPHIC] [TIFF OMITTED] T5595.143
    
    [GRAPHIC] [TIFF OMITTED] T5595.144
    
    [GRAPHIC] [TIFF OMITTED] T5595.002
    
    [GRAPHIC] [TIFF OMITTED] T5595.003
    
    [GRAPHIC] [TIFF OMITTED] T5595.004
    
    [GRAPHIC] [TIFF OMITTED] T5595.005
    
    [GRAPHIC] [TIFF OMITTED] T5595.006
    
    [GRAPHIC] [TIFF OMITTED] T5595.007
    
    [GRAPHIC] [TIFF OMITTED] T5595.008
    
    [GRAPHIC] [TIFF OMITTED] T5595.009
    
    [GRAPHIC] [TIFF OMITTED] T5595.010
    
    [GRAPHIC] [TIFF OMITTED] T5595.011
    
    [GRAPHIC] [TIFF OMITTED] T5595.012
    
    [GRAPHIC] [TIFF OMITTED] T5595.013
    
    [GRAPHIC] [TIFF OMITTED] T5595.014
    
    [GRAPHIC] [TIFF OMITTED] T5595.015
    
    [GRAPHIC] [TIFF OMITTED] T5595.016
    
    [GRAPHIC] [TIFF OMITTED] T5595.017
    
    [GRAPHIC] [TIFF OMITTED] T5595.018
    
    [GRAPHIC] [TIFF OMITTED] T5595.019
    
    [GRAPHIC] [TIFF OMITTED] T5595.020
    
    [GRAPHIC] [TIFF OMITTED] T5595.021
    
    [GRAPHIC] [TIFF OMITTED] T5595.022
    
    [GRAPHIC] [TIFF OMITTED] T5595.023
    
    [GRAPHIC] [TIFF OMITTED] T5595.024
    
    [GRAPHIC] [TIFF OMITTED] T5595.025
    
    [GRAPHIC] [TIFF OMITTED] T5595.026
    
    [GRAPHIC] [TIFF OMITTED] T5595.027
    
    [GRAPHIC] [TIFF OMITTED] T5595.028
    
    [GRAPHIC] [TIFF OMITTED] T5595.029
    
    [GRAPHIC] [TIFF OMITTED] T5595.030
    
    [GRAPHIC] [TIFF OMITTED] T5595.031
    
    [GRAPHIC] [TIFF OMITTED] T5595.032
    
    [GRAPHIC] [TIFF OMITTED] T5595.033
    
    [GRAPHIC] [TIFF OMITTED] T5595.034
    
    [GRAPHIC] [TIFF OMITTED] T5595.035
    
    [GRAPHIC] [TIFF OMITTED] T5595.036
    
    [GRAPHIC] [TIFF OMITTED] T5595.037
    
    [GRAPHIC] [TIFF OMITTED] T5595.038
    
    [GRAPHIC] [TIFF OMITTED] T5595.039
    
    [GRAPHIC] [TIFF OMITTED] T5595.040
    
    [GRAPHIC] [TIFF OMITTED] T5595.041
    
    [GRAPHIC] [TIFF OMITTED] T5595.042
    
    [GRAPHIC] [TIFF OMITTED] T5595.043
    
    [GRAPHIC] [TIFF OMITTED] T5595.044
    
    [GRAPHIC] [TIFF OMITTED] T5595.045
    
    [GRAPHIC] [TIFF OMITTED] T5595.046
    
    [GRAPHIC] [TIFF OMITTED] T5595.047
    
    [GRAPHIC] [TIFF OMITTED] T5595.048
    
    [GRAPHIC] [TIFF OMITTED] T5595.049
    
    [GRAPHIC] [TIFF OMITTED] T5595.050
    
    [GRAPHIC] [TIFF OMITTED] T5595.051
    
    [GRAPHIC] [TIFF OMITTED] T5595.052
    
    [GRAPHIC] [TIFF OMITTED] T5595.053
    
    [GRAPHIC] [TIFF OMITTED] T5595.054
    
    [GRAPHIC] [TIFF OMITTED] T5595.055
    
    [GRAPHIC] [TIFF OMITTED] T5595.056
    
    [GRAPHIC] [TIFF OMITTED] T5595.057
    
    [GRAPHIC] [TIFF OMITTED] T5595.058
    
    [GRAPHIC] [TIFF OMITTED] T5595.059
    
    [GRAPHIC] [TIFF OMITTED] T5595.060
    
    [GRAPHIC] [TIFF OMITTED] T5595.061
    
    [GRAPHIC] [TIFF OMITTED] T5595.062
    
    [GRAPHIC] [TIFF OMITTED] T5595.063
    
    [GRAPHIC] [TIFF OMITTED] T5595.064
    
    [GRAPHIC] [TIFF OMITTED] T5595.065
    
    [GRAPHIC] [TIFF OMITTED] T5595.066
    
    [GRAPHIC] [TIFF OMITTED] T5595.067
    
    [GRAPHIC] [TIFF OMITTED] T5595.068
    
    [GRAPHIC] [TIFF OMITTED] T5595.069
    
    [GRAPHIC] [TIFF OMITTED] T5595.070
    
    [GRAPHIC] [TIFF OMITTED] T5595.071
    
    [GRAPHIC] [TIFF OMITTED] T5595.072
    
    [GRAPHIC] [TIFF OMITTED] T5595.073
    
    [GRAPHIC] [TIFF OMITTED] T5595.074
    
    [GRAPHIC] [TIFF OMITTED] T5595.075
    
    [GRAPHIC] [TIFF OMITTED] T5595.076
    
    [GRAPHIC] [TIFF OMITTED] T5595.077
    
    [GRAPHIC] [TIFF OMITTED] T5595.078
    
    [GRAPHIC] [TIFF OMITTED] T5595.079
    
    [GRAPHIC] [TIFF OMITTED] T5595.080
    
    [GRAPHIC] [TIFF OMITTED] T5595.081
    
    [GRAPHIC] [TIFF OMITTED] T5595.082
    
    [GRAPHIC] [TIFF OMITTED] T5595.083
    
    [GRAPHIC] [TIFF OMITTED] T5595.084
    
    [GRAPHIC] [TIFF OMITTED] T5595.085
    
    [GRAPHIC] [TIFF OMITTED] T5595.086
    
    [GRAPHIC] [TIFF OMITTED] T5595.087
    
    [GRAPHIC] [TIFF OMITTED] T5595.088
    
    [GRAPHIC] [TIFF OMITTED] T5595.089
    
    [GRAPHIC] [TIFF OMITTED] T5595.090
    
    [GRAPHIC] [TIFF OMITTED] T5595.091
    
    [GRAPHIC] [TIFF OMITTED] T5595.092
    
    [GRAPHIC] [TIFF OMITTED] T5595.093
    
    [GRAPHIC] [TIFF OMITTED] T5595.094
    
    [GRAPHIC] [TIFF OMITTED] T5595.095
    
    [GRAPHIC] [TIFF OMITTED] T5595.096
    
    [GRAPHIC] [TIFF OMITTED] T5595.097
    
    [GRAPHIC] [TIFF OMITTED] T5595.098
    
    [GRAPHIC] [TIFF OMITTED] T5595.099
    
    [GRAPHIC] [TIFF OMITTED] T5595.118
    
    [GRAPHIC] [TIFF OMITTED] T5595.119
    
    [GRAPHIC] [TIFF OMITTED] T5595.120
    
    [GRAPHIC] [TIFF OMITTED] T5595.121
    
    [GRAPHIC] [TIFF OMITTED] T5595.122
    
    [GRAPHIC] [TIFF OMITTED] T5595.123
    
    [GRAPHIC] [TIFF OMITTED] T5595.124
    
    [GRAPHIC] [TIFF OMITTED] T5595.125
    
    [GRAPHIC] [TIFF OMITTED] T5595.126
    
    [GRAPHIC] [TIFF OMITTED] T5595.127
    
    [GRAPHIC] [TIFF OMITTED] T5595.128
    
    [GRAPHIC] [TIFF OMITTED] T5595.129
    
    [GRAPHIC] [TIFF OMITTED] T5595.130
    
    [GRAPHIC] [TIFF OMITTED] T5595.131
    
    [GRAPHIC] [TIFF OMITTED] T5595.132
    
    [GRAPHIC] [TIFF OMITTED] T5595.133
    
    [GRAPHIC] [TIFF OMITTED] T5595.134
    
    [GRAPHIC] [TIFF OMITTED] T5595.135
    
    [GRAPHIC] [TIFF OMITTED] T5595.136
    
    [GRAPHIC] [TIFF OMITTED] T5595.137
    
    [GRAPHIC] [TIFF OMITTED] T5595.138
    
    [GRAPHIC] [TIFF OMITTED] T5595.139
    
    [GRAPHIC] [TIFF OMITTED] T5595.140
    
    [GRAPHIC] [TIFF OMITTED] T5595.141
    
    [GRAPHIC] [TIFF OMITTED] T5595.142
    
    [GRAPHIC] [TIFF OMITTED] T5595.100
    
    [GRAPHIC] [TIFF OMITTED] T5595.101
    
    [GRAPHIC] [TIFF OMITTED] T5595.102
    
    [GRAPHIC] [TIFF OMITTED] T5595.103
    
    [GRAPHIC] [TIFF OMITTED] T5595.104
    
    [GRAPHIC] [TIFF OMITTED] T5595.105
    
    [GRAPHIC] [TIFF OMITTED] T5595.106
    
    [GRAPHIC] [TIFF OMITTED] T5595.107
    
    [GRAPHIC] [TIFF OMITTED] T5595.108
    
    [GRAPHIC] [TIFF OMITTED] T5595.109
    
    [GRAPHIC] [TIFF OMITTED] T5595.110
    
    [GRAPHIC] [TIFF OMITTED] T5595.111
    
    [GRAPHIC] [TIFF OMITTED] T5595.112
    
    [GRAPHIC] [TIFF OMITTED] T5595.113
    
    [GRAPHIC] [TIFF OMITTED] T5595.114
    
    [GRAPHIC] [TIFF OMITTED] T5595.115
    
    [GRAPHIC] [TIFF OMITTED] T5595.116
    
    [GRAPHIC] [TIFF OMITTED] T5595.117
    
?

      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                             March 17, 2011

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T5595.154
    
    [GRAPHIC] [TIFF OMITTED] T5595.155
    
    [GRAPHIC] [TIFF OMITTED] T5595.156
    
    [GRAPHIC] [TIFF OMITTED] T5595.157
    
    [GRAPHIC] [TIFF OMITTED] T5595.158
    
    [GRAPHIC] [TIFF OMITTED] T5595.159
    
    [GRAPHIC] [TIFF OMITTED] T5595.160
    
    [GRAPHIC] [TIFF OMITTED] T5595.161
    
    [GRAPHIC] [TIFF OMITTED] T5595.162
    
    [GRAPHIC] [TIFF OMITTED] T5595.163
    
    [GRAPHIC] [TIFF OMITTED] T5595.164
    
    [GRAPHIC] [TIFF OMITTED] T5595.165
    
    [GRAPHIC] [TIFF OMITTED] T5595.166
    
    [GRAPHIC] [TIFF OMITTED] T5595.167
    
    [GRAPHIC] [TIFF OMITTED] T5595.168
    
    [GRAPHIC] [TIFF OMITTED] T5595.169
    
    [GRAPHIC] [TIFF OMITTED] T5595.170
    
    [GRAPHIC] [TIFF OMITTED] T5595.171
    
    [GRAPHIC] [TIFF OMITTED] T5595.172
    
    [GRAPHIC] [TIFF OMITTED] T5595.173
    
    [GRAPHIC] [TIFF OMITTED] T5595.174
    
    [GRAPHIC] [TIFF OMITTED] T5595.175
    
    [GRAPHIC] [TIFF OMITTED] T5595.176
    
    [GRAPHIC] [TIFF OMITTED] T5595.177
    
    [GRAPHIC] [TIFF OMITTED] T5595.178
    
    [GRAPHIC] [TIFF OMITTED] T5595.179
    
    [GRAPHIC] [TIFF OMITTED] T5595.180
    
    [GRAPHIC] [TIFF OMITTED] T5595.181
    
    [GRAPHIC] [TIFF OMITTED] T5595.182
    
    [GRAPHIC] [TIFF OMITTED] T5595.183
    
    [GRAPHIC] [TIFF OMITTED] T5595.184
    
    [GRAPHIC] [TIFF OMITTED] T5595.185
    
    [GRAPHIC] [TIFF OMITTED] T5595.186
    
    [GRAPHIC] [TIFF OMITTED] T5595.187
    
    [GRAPHIC] [TIFF OMITTED] T5595.188
    
    [GRAPHIC] [TIFF OMITTED] T5595.189
    
    [GRAPHIC] [TIFF OMITTED] T5595.190
    
    [GRAPHIC] [TIFF OMITTED] T5595.191
    
    [GRAPHIC] [TIFF OMITTED] T5595.192
    
    [GRAPHIC] [TIFF OMITTED] T5595.193
    
    [GRAPHIC] [TIFF OMITTED] T5595.194
    
    [GRAPHIC] [TIFF OMITTED] T5595.195
    
    [GRAPHIC] [TIFF OMITTED] T5595.196
    
    [GRAPHIC] [TIFF OMITTED] T5595.197
    
    [GRAPHIC] [TIFF OMITTED] T5595.198
    
    [GRAPHIC] [TIFF OMITTED] T5595.199
    
    [GRAPHIC] [TIFF OMITTED] T5595.200
    
    [GRAPHIC] [TIFF OMITTED] T5595.201
    
    [GRAPHIC] [TIFF OMITTED] T5595.202
    
    [GRAPHIC] [TIFF OMITTED] T5595.203
    
    [GRAPHIC] [TIFF OMITTED] T5595.204
    
    [GRAPHIC] [TIFF OMITTED] T5595.205
    
    [GRAPHIC] [TIFF OMITTED] T5595.206
    
    [GRAPHIC] [TIFF OMITTED] T5595.207
    
    [GRAPHIC] [TIFF OMITTED] T5595.208
    
    [GRAPHIC] [TIFF OMITTED] T5595.209
    
    [GRAPHIC] [TIFF OMITTED] T5595.210
    
    [GRAPHIC] [TIFF OMITTED] T5595.211
    
    [GRAPHIC] [TIFF OMITTED] T5595.212
    
    [GRAPHIC] [TIFF OMITTED] T5595.213
    
    [GRAPHIC] [TIFF OMITTED] T5595.214
    
    [GRAPHIC] [TIFF OMITTED] T5595.215
    
    [GRAPHIC] [TIFF OMITTED] T5595.216
    
    [GRAPHIC] [TIFF OMITTED] T5595.217
    
    [GRAPHIC] [TIFF OMITTED] T5595.218
    
    [GRAPHIC] [TIFF OMITTED] T5595.219
    
    [GRAPHIC] [TIFF OMITTED] T5595.220
    
    [GRAPHIC] [TIFF OMITTED] T5595.145
    
    [GRAPHIC] [TIFF OMITTED] T5595.146
    
    [GRAPHIC] [TIFF OMITTED] T5595.147
    
    [GRAPHIC] [TIFF OMITTED] T5595.148
    
    [GRAPHIC] [TIFF OMITTED] T5595.149
    
    [GRAPHIC] [TIFF OMITTED] T5595.150
    
    [GRAPHIC] [TIFF OMITTED] T5595.151
    
    [GRAPHIC] [TIFF OMITTED] T5595.152
    
    [GRAPHIC] [TIFF OMITTED] T5595.153
    
?

      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             March 17, 2011

=======================================================================

      
             RESPONSES TO QUESTIONS SUBMITTED BY MRS. DAVIS

    Secretary Stanley. Although the NDAA 2010 authorized $50M for the 
programs, appropriations did not follow. However, the Department took 
the following actions to comply with the NDAA:
    <bullet>  Provided the Services bridge funding in FY 2010 and FY 
2011 to establish case managers (120) within the Exceptional Family 
Member Program (EFMP). These case managers were new to the Air Force 
and Navy, while the positions were used to supplement the well-
established Army and Marine Corps programs.
    <bullet>  Drafted a new issuance clarifying policy regarding the 
Exceptional Family Member Program (EFMP). The new issuance will reflect 
the requirements of U.S.C. 1781c, as added by the NDAA 2010, for a 
uniform DOD policy regarding military families with special needs. A 
draft for Service review will be available in the Spring 2011.
    <bullet>  Initiated three research studies:
        <all>  Availability and accessibility of services for children 
        with autism (Phase 1 completed; report and directory to be 
        available on Military HOMEFRONT website Spring 2011).
        <all>  Availability and accessibility of Medicaid to military 
        families with special needs (anticipated completion date: 
        September 2011)
        <all>  Benchmark study to assist in establishing family support 
        programs for military families with special needs (anticipated 
        completion date: November 2011).
    <bullet>  Developed professional materials to communicate the EFMP 
to military families. Materials to be disseminated to all military 
installation family centers in April 2011.
    <bullet>  Developed electronic learning modules, which will be 
available to families with special needs and to providers on DOD and 
Military Service websites. The eLearning modules will educate families 
on the benefits and services available to them and the member with 
special needs. Anticipate first module to be available summer 2011.
    <bullet>  Initiated a Functional Analysis of the EFMP including a 
review of the Military Services' current policies, procedures, 
databases and case management systems as a first step in developing a 
joint database/case management system. The Functional Analysis will be 
conducted during FY 2011 to examine existing systems and project future 
needs for sharing information. This is a long term project to assist in 
the development of a joint database. The final outcome will network 
EFMP family support, personnel activities and military health systems 
to provide information as needed for assignments and for family 
support.
    We are working with the Services to validate the level of EFMP 
staffing necessary to meet the intention of the law for individualized 
services, and to ensure that the Services have adequate funding for 
these positions beginning in FY 2012. [See page 11.]
    Secretary Stanley. The Department has no objection to an amendment 
to Title 10 that would authorize, but not require vocational training 
on military installations. [See page 12.]
                                 ______
                                 
             RESPONSE TO QUESTION SUBMITTED BY MS. BORDALLO

    General Bostick. We believe we can support the NGB's request for 
IDT travel reimbursement without the need to establish a Pilot Program. 
To do so requires validation of shortage Military Occupational 
Specialty (MOS) in Guam and a change to the Joint Federal Travel 
Regulation (JFTR) to modify the 150 mile one-way commuting distance for 
U.S territories. On May 2, 2011, the Army requested a change to the 
JFTR. We expect a final determination by May 27, 2011. [See page 15.]
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             March 17, 2011

=======================================================================

      
                   QUESTIONS SUBMITTED BY MR. WILSON

    Mr. Wilson. Mr. Secretary, today there is an increased emphasis on 
reducing federal spending, especially on programs that have not been 
operating effectively. Can you help the committee understand, how 
effective has the JAMRS program been both in terms of helping the 
Department attain its objectives for maintaining the all-volunteer 
force and in terms of the returns for the dollars being invested?
    Secretary Stanley. Yes, the work done by the Joint Advertising 
Market Research and Studies (JAMRS) is necessary for sustaining the 
All-Volunteer Force (AVF). JAMRS has been proven operationally 
effective, and a critical resource DOD's recruiting efforts. 
Specifically, JAMRS bolsters the effectiveness of every Service 
component's (Active, Guard, Reserve) recruiting efforts by helping them 
better understand and adapt to the complexities of the recruiting 
environment. JAMRS serves three primary functions within the Department 
and tracks the operational effectiveness of these functional areas, 
demonstrating strong performance in each:
    1) Market Research: To successfully recruit the AVF, the Services 
must have actionable information about recruiting markets. JAMRS 
performs this function for all the Services through efforts like the 
DOD Youth Poll, an effort conducted since the advent of the AVF to 
provide the necessary intelligence to maintain it. This was clearly 
demonstrated in early 2006, when JAMRS provided key indications that 
enabled USD (P&R) to take preemptive action to sustain recruiting and 
retention efforts. The operational effectiveness of JAMRS' market 
research efforts are evaluated annually through a survey of all of 
JAMRS' constituent groups. The results from this survey continually 
affirm the necessity of the research conducted by JAMRS and the high 
level of service that JAMRS provides. Moreover, the operational 
effectiveness of JAMRS is demonstrated through the Services' actions as 
they continually turn to JAMRS' staff for consultation on the 
recruiting market and to request special studies on hard-to-recruit 
populations (e.g., physicians, prior service members, etc.).
    2) Comprehensive Prospect Database: The centralized efforts by 
JAMRS to acquire, maintain and update a database of potential prospects 
(30.5 million names and more than 90% coverage of the recruit age 
population) create efficiencies for all recruiters. This database is 
the backbone of the Services' direct marketing and recruiting efforts. 
As a result, every military recruiter becomes more efficient because 
they have a database of prospects in their area, and direct mailing 
efforts DOD-wide can be targeted to those households with recruit age 
youth.
    3) Outreach: Through outreach, JAMRS has created a more receptive 
environment for recruiting in definable and measureable ways. JAMRS 
developed an award winning campaign that actively advertised to adult 
influencers (e.g., parents, grandparents, educators, etc.) of recruit 
age youth. This advertising campaign played a key role in sustaining 
public support for military service during the war, and was 
specifically praised by former Chairman of the House Armed Services 
Committee, Ike Skelton. JAMRS routinely conducts studies measuring the 
return on investment on its outreach efforts. These studies demonstrate 
that exposure to JAMRS' outreach efforts result in influencers being 
more knowledgeable about military service and willing to engage in more 
pro-recruiting behaviors (e.g., have conversation with youth about the 
Military, support decision to join, etc.).
    In summary, the efforts of JAMRS save DOD considerable money (an 
estimated $96 million) and effort. The high return on investment is 
achieved through close coordination between JAMRS and the Services as 
well as efficient streamlining of roles and responsibilities. These 
consolidations identify common needs across the Services and then 
remain the responsibility of JAMRS alone. Moving forward, the return on 
investment must also incorporate gains achieved as a result of more 
precise and targeted recruiting efforts. These efforts may be furthered 
through market research and the prospect database and the creation of a 
more receptive recruiting environment through continuous influencer 
outreach.
    Mr. Wilson. Mr. Secretary, in your written statement you indicate 
that JAMRS is one of the most cost-effective recruiting programs in the 
Department. Can you please elaborate and explain to the committee what 
evidence you have to support this position?
    Secretary Stanley. Yes. The goal of JAMRS' (Joint Advertising 
Market Research and Studies') is to ensure that the shared needs of 
military recruiting are performed one time for the entire Department 
rather than once per Service so that the Services can focus on their 
unique recruiting goals. Although each Service approaches recruiting 
differently as they each have unique recruiting goals and cultures, the 
Services share many of the same basic information and resource needs. 
JAMRS works side by side with the Services (via daily collaboration as 
well as formal meetings) to identify the activities to perform so that 
shared needs are met efficiently. This approach ensures that JAMRS 
provides only those resources that are vital to support the Services' 
needs.
    Without JAMRS, each Service would be forced to take on functions 
that the program has successfully provided for more than a decade, 
ultimately resulting in the total cost of military recruiting 
increasing needlessly (approximately $96 million). These functions 
include:
    1) Market Research: JAMRS ensures that the shared information needs 
required for military recruiting are met and that duplication of 
efforts is minimized. This includes conducting tracking studies to 
monitor propensity to serve and the attitudes and behaviors of specific 
populations essential for recruiting success (i.e., prospect, educator, 
parents, prior service, recruiters). JAMRS also tracks the 
effectiveness of all DOD recruitment advertising campaigns so the 
Services can optimize their marketing resources, and helps to ensure 
nearly a billion dollars of advertising is spent effectively (GAO-03-
1005 recommendation). Additionally, JAMRS conducts specific mission 
critical research to provide intelligence on hard to recruit markets 
(i.e., physicians, racial/ethnic diversity recruiting). Together these 
efforts unveil trends so the Services can prepare strategies to combat 
problematic issues before missions are missed or resources are wasted. 
Performing this function at the joint level saves DOD a minimum of $25 
million annually.
    2) Comprehensive Prospect Database: JAMRS acquires, maintains, and 
updates a database of over 30.5 million names. The Services rely on 
this database as their primary source of contact information for 
prospective recruits and it serves as the backbone of the Services' 
outreach efforts. JAMRS brokers consolidated purchases from DMVs and 
public vendors on the behalf of all Services, allowing the Department 
to purchase names once for use by all. This minimizes the duplication 
of cost and effort, creating an essential resource at a meaningful cost 
savings for the Department. JAMRS spends approximately $3.5 million on 
this database. Having the Services independently create and maintain 
this database would increase cost to DOD by at least $35 million 
annually.
    3) Outreach: Outreach efforts conducted by JAMRS are distinct 
from--yet integral to--those of the Services. Recruiting is a long-term 
effort and joining the Military is a big decision that takes an 
extended period of time and involves the prospect, his/her family, 
close friends, and educators. To stay successful, the Department must 
stay relevant. In 2002, a congressional report recommended that DOD 
``reconnect with America''; JAMRS outreach efforts strive to do just 
that. Today, JAMRS is the only DOD entity that actively advertises to 
adult influencers of recruitment-aged youth (i.e., parents, 
grandparents, educators, etc.). JAMRS disseminates information and 
persuasive messages via direct marketing, three websites (each with a 
unique purpose), magazines distributed to 95% of public high schools 
nationwide, and TV and magazine advertising. Conducting outreach to 
influencers at the joint level saves DOD approximately $36 million 
annually and allows the Services to focus on prospects.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MS. TSONGAS

    Ms. Tsongas. I would like to commend the Army for their hard work 
in developing and fielding the Third Generation Extended Cold Weather 
Clothing System (GEN III ECWCS) which continues to play an essential 
role in the combat effectiveness, health and safety of our soldiers. 
Prior to October 2010, industry was producing 20,000 GEN III ECWCS sets 
a month to ensure that all deploying soldiers were issued this required 
clothing system. It is my understanding that in 2011 the Army has 
greatly reduced the orders of this clothing system in the new Operation 
Enduring Freedom Camouflage Pattern (OCP). These numbers represent a 
130,000 decrease in annual GEN III ECWCS orders and do not appear to be 
sufficient to properly equip the deploying force nor sustain the 
domestic supply chain. It is critical that the Army continues to ensure 
both soldier safety and the effective use of taxpayer dollars. For this 
reason, I am concerned that the recent sharp decrease in GEN III ECWCS 
production is already resulting in shortages of a critical combat 
clothing system and is creating a substantial disruption in the 
domestic supply chain that supports our troops. It is my understanding 
that this is a fragile supply chain and as these manufacturing lines 
cease operation and layoffs occur that the United States stands to lose 
the ability to domestically produce GEN III ECWCS as well as other 
basic items necessary for combat and peacekeeping operations. I would 
like to ascertain the Army's near-term plans to ensure that the GEN III 
ECWCS supply chain is sustained in order to ensure our nation's 
capability to fill future personnel requirements.
    Secretary Stanley. This request is not within the purview of the 
USD (P&R) issue portfolio and instead is within the Army's area of 
expertise. Therefore, the following response has been provided by the 
Army.
    There are no GEN III ECWCS shortages for deploying or deployed 
Soldiers. The Army is in the final year of a five-year contract for 
ECWCS initial fielding to Soldiers. To date, the Army has procured over 
850,000 kits since the introduction of ECWCS onto the Rapid Fielding 
Initiative (RFI) list of issued equipment. Soldiers retain the ECWCS 
after initial fielding for future deployments. After the initial 
fielding requirement is met, the Defense Logistics Agency Troop Support 
(DLA-Troop Support) will provide sustainment quantities to ensure every 
deploying Soldier will continue to receive ECWCS as required. DLA-Troop 
Support is in the process of awarding new contracts for the ECWCS 
individual layers to maintain the supply chain and ensure future 
capability in the industrial base.
    Ms. Tsongas. I would like to commend the Army for their hard work 
in developing and fielding the Third Generation Extended Cold Weather 
Clothing System (GEN III ECWCS) which continues to play an essential 
role in the combat effectiveness, health and safety of our 
soldiers.Prior to October 2010, industry was producing 20,000 GEN III 
ECWCS sets a month to ensure that all deploying soldiers were issued 
this required clothing system. It is my understanding that in 2011 the 
Army has greatly reduced the orders of this clothing system in the new 
Operation Enduring Freedom Camouflage Pattern (OCP). These numbers 
represent a 130,000 decrease in annual GEN III ECWCS orders and do not 
appear to be sufficient to properly equip the deploying force nor 
sustain the domestic supply chain. It is critical that the Army 
continues to ensure both soldier safety and the effective use of 
taxpayer dollars. For this reason, I am concerned that the recent sharp 
decrease in GEN III ECWCS production is already resulting in shortages 
of a critical combat clothing system and is creating a substantial 
disruption in the domestic supply chain that supports our troops. It is 
my understanding that this is a fragile supply chain and as these 
manufacturing lines cease operation and layoffs occur that the United 
States stands to lose the ability to domestically produce GEN III ECWCS 
as well as other basic items necessary for combat and peacekeeping 
operations. I would like to ascertain the Army's near-term plans to 
ensure that the GEN III ECWCS supply chain is sustained in order to 
ensure our nation's capability to fill future personnel requirements.
    General Bostick. There are no GEN III ECWCS shortages for deploying 
or deployed Soldiers. The Army is in the final year of a five-year 
contract for ECWCS initial fielding to Soldiers. To date, the Army has 
procured over 850,000 kits since the introduction of ECWCS onto the 
Rapid Fielding Initiative (RFI) list of issued equipment. Soldiers 
retain the ECWCS after initial fielding for future deployments. After 
the initial fielding requirement is met, the Defense Logistics Agency 
Troop Support (DLA-Troop Support) will provide sustainment quantities 
to ensure every deploying Soldier will continue to receive ECWCS as 
required. DLA-Troop Support is in the process of awarding new contracts 
for the ECWCS individual layers to maintain the supply chain and ensure 
future capability in the industrial base.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
